HHS/OIG, Audit -"Medicaid Payments for Beneficiaries with Concurrent Eligibility
in Ohio and Michigan, Ohio Department of Job and Family Services,"(A-05-06-00021)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Beneficiaries with
Concurrent Eligibility in Ohio and Michigan, Ohio Department of Job and Family Services," (A-05-06-00021)
June 23, 2006
Complete
Text of Report is available in PDF format (533 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine the appropriateness of Medicaid payments made
by the State of Ohio for beneficiaries who were concurrently listed as Medicaid eligible
in both Ohio and Michigan.  We found that the Ohio Medicaid program inappropriately
paid $333,716 for 471 Medicaid beneficiaries who had established eligibility in both States
but should only have been eligible in Michigan.  We did not determine the appropriateness
of an additional $56,171 of payments made during the first month of concurrent eligibility
because Ohio considers the beneficiary eligible for the full month once eligibility is established
any time during the month.  We recommended that the Ohio Department of Job and Family
Services (State agency):  (1) seek recovery of inappropriate payments, estimated to
be $333,716 ($196,325 Federal share), and refund the Federal share of recovered amounts;
(2) review claims made in the first month of concurrent eligibility and determine whether
the payments are allowable; and (3) consider additional procedures for identifying beneficiaries
moving out of State, including participation in the  Public Assistance Reporting Information
System (PARIS) project and increased sharing of eligibility information with the other State
Medicaid programs.  Ohio officials agreed to perform additional work to determine the
allowability of reported inappropriate payments.  The State agency will consider additional
procedures and participation in PARIS based on the results of their review.